            SENSITIVE BUT UNCLASSIFIED

       United States Department of State

     and the Broadcasting Board of Governors

                Ofﬁce of Inspector General





       Middle East Regional Ofﬁce

    Review of Diplomatic
 Security’s Management of
Personal Protective Services
           in Iraq


Report Number MERO-IQO-09-02, January 2009




                              IMPORTANT NOTICE
  This report is intended solely for the ofﬁcial use of the Department of State or the
  Broadcasting Board of Governors, or any agency or organization receiving a copy
  directly from the Ofﬁce of Inspector General. No secondary distribution may be made,
  in whole or in part, outside the Department of State or the Broadcasting Board of
  Governors, by them or by other agencies or organizations, without prior authorization
  by the Inspector General. Public availability of the document will be determined by
  the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of
  this report may result in criminal, civil, or administrative penalties.




            SENSITIVE BUT UNCLASSIFIED

                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General
                         SENSITIVE BUT UNCLASSIFIED





                               TABLE OF CONTENTS

KEY FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

      Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

      Additional Issues for Consideration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

      Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8 

      Management and Oversight of Security Contractors . . . . . . . . . . . . . . . . . . 9

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

MANAGING IRAQ’S PROTECTION SECURITY PROGRAM . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

       Washington Management Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

       Iraq Management Issues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

       Verifying Personnel Labor Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

       Managing Government Furnished Equipment . . . . . . . . . . . . . . . . . . . . . . . 17

SECURITY REQUIREMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

DETERMINING CONTRACTOR WORK LOCATIONS AND RESPONSIBILITIES . . . . . . . . . . . . . 23

LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

APPENDIX I - PURPOSE, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . 29





                          SENSITIVE BUT UNCLASSIFIED

               SENSITIVE BUT UNCLASSIFIED





                          KEY FINDINGS


• 	 The Bureau of Diplomatic Security (DS) has been highly effective in ensur-
    ing the safety of chief of mission personnel in Iraq.

• 	 DS does not have a strong control environment to ensure the Worldwide
    Personal Protective Services (WPPS) contract is effectively managed, assets
    are safeguarded, and laws and regulations are in compliance due to:

       • 	 Frequent changes in management personnel and staff turnover;
       • 	 Rapid expansion of activities;
       •   	Understafﬁng and drastic increase in workload, as well as staff having
            difﬁculties handling operational workload;
       • 	 Lack of operating policies and procedures; and
       • 	 Staff frustrated by requests for information, and inability to provide
           information.

• 	 Analysis of personnel rosters (muster sheets) revealed the three WPPS
    contractors had recurring difﬁculties maintaining required stafﬁng for critical
    labor categories. There is no attempt to ensure the accuracy of muster sheets
    at their origin in the ﬁeld, and therefore, no means to verify personnel labor
    costs.

• 	 Embassy Baghdad’s use of contractors to manage and control government-
    furnished equipment may violate Federal Acquisition Regulation policy that
    contractors shall not be used for the performance of “inherently governmen-
    tal” functions.

• 	 The security footprint of the three WPPS contractors in Iraq is a legacy of
    the Coalition Provisional Authority period.

• 	 There have been no assessments or analysis to determine the personal
    protective service requirements in Iraq, including how many security person-
    nel to employ, where they should be deployed, or the level and manner of
    protection given the threat in particular locations. The Ofﬁce of Inspector
    General (OIG) noted several instances that raised concerns over the efﬁcient
    deployment of contractor security assets.


     OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009   1 .


               SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





-
2 .   OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





                               INTRODUCTION


    The employment of private security contractors in Iraq has become a critical
Department tool for providing personal protection since Embassy Baghdad opened
in July, 2004. Contractors working under the WPPS contract provide security for
ofﬁcials who fall under chief of mission authority, as well as site security at the
Embassy and other facilities in Iraq. In June 2005, Blackwater USA, Dyncorp
International, and Triple Canopy were awarded indeﬁnite-delivery/indeﬁnite-quantity
contracts (one base + four option years) under what is now known as the WPPS II
contract. The Department has obligated nearly $2 billion under WPPS II for ﬁs-
cal years 2005-2008, and had 1,290 security contractors operating in Iraq, as of
September 1, 2008. The Department is currently drafting contract speciﬁcations
and plans to open a competitive bidding process in early 2009 for WPPS III.

    OIG initiated this work under the authority of the Inspector General Act of
1978, as amended1, due to concerns about the Department’s exercise of control over
the performance of security contractors in Iraq, and to provide information to guide
the award and management of WPPS III. This report provides information on (1)
whether DS is effectively managing the security program in Iraq; (2) how the security
requirements in Iraq were determined; and (3) what factors were considered for the
geographical array of security contractors, DS staff, and equipment within Iraq.

    This report is the second in a series on the Department’s management of the
personal protective security program in Iraq.2 OIG is in the process of completing
two reports on the contract performance of DynCorp International and Triple Can-
opy and will report these ﬁndings in early 2009. In making this assessment, OIG met
with ofﬁcials from DS, the Ofﬁce of Acquisitions Management, Embassy Baghdad,
Multi-National Forces-Iraq, and the three security companies under contract to pro-
vide protective services to the Department. In addition, OIG visited sites throughout
Iraq where private security contractors provide movement and personal protection
for U.S. mission personnel, including Erbil, Kirkuk, Hillah, Tallil, and Basra.



1
5 USC App. 3.

2
See Status of the Secretary of State’s Panel on Personal Protective Services in Iraq Report 

Recommendations, MERO-IQO-09-01, December 2008.




           OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009   3 .


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





-
4 .   OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                     EXECUTIVE SUMMARY



RESULTS
    The Department’s security operation in Iraq has been highly effective in ensuring
the safety of chief of mission personnel. However, the rapid rise in use and scale of
private security contractors has strained the Department’s ability to effectively man-
age them. The Department’s management of the security program in Iraq has been
undermined by frequent staff turnover, understafﬁng, increased workload, and the
lack of standardized operating policies and procedures.

    The Bureau of Administration’s Ofﬁce of Acquisitions Management (AQM),
located in Washington, DC, has had six different contracting ofﬁcers responsible
for administering the WPPS contracts since July 2004. In addition to the disrup-
tion caused by this signiﬁcant turnover, senior AQM ofﬁcials report that manpower
shortages prevent the ofﬁce from effectively managing and performing contract
oversight, such as ensuring the costs incurred by contractors are proper. As a result,
AQM relies on the DS Ofﬁce of Overseas Protective Operations (OPO) to monitor
contractor performance and costs. However, OPO also suffers from high staff turn-
over, with more than 150 percent turnover in contract support staff since December
2006.

    DS, in an effort to enhance contract oversight in Iraq, began assigning special
agents in December 2007 the responsibility for supervising contractors to assure
compliance with the WPPS II contract terms and conditions. However, OIG found
the high operational tempo in Iraq requires special agents to focus on the planning
and execution of protection missions with little time for contract administration. A
senior security ofﬁcer told OIG the Embassy relies on the contractors to manage
their own staff and property. Special agents reported they have excellent awareness
of how the contractors perform their protection duties, but minimal insight regard-
ing how the contracts are managed and whether costs are properly allocated. For
example, these special agents were not verifying contractor personnel rosters (muster
sheets) or the maintenance of property control systems for government-furnished
equipment.



          OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009   5 .


                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



           Effective oversight of the private security contractors is also hindered by the fre-
      quent turnover of staff in Iraq. Special agents serve on a 12-month rotational sched-
      ule, which includes nearly two months of R&R time away from post. The OIG team
      also noted that the Embassy and ﬁeld sites were not maintaining, or had limited,
      contractor ﬁles as required by Federal Acquisition Regulation (FAR) policy. The lack
      of contractor ﬁles presented an unnecessary burden for newly arriving special agents
      who need to quickly get up to speed on contract requirements and program practices
      and procedures. Special agents were further hindered by the lack of written Depart-
      ment standards, policies, and procedures for managing private security contractors.
      Finally, the only training special agents assigned WPPS oversight responsibilities
      receive is a basic 40-hour contracting ofﬁcer representative course. Special agents
      told the OIG team that the training was too generic to adequately prepare them for
      the scope and complexity of the WPPS II contract.

          The WPPS II contract requires that the security contractors submit muster sheets
      to document that staffs are present and available for work. OIG’s analysis of the
      muster sheets revealed the three WPPS II contractors had recurring difﬁculties main-
      taining required stafﬁng for three critical labor categories: emergency medical techni-
      cians, designated marksmen, and interpreters. The Department had not invoked the
      ﬁnancial deduct penalty clause for this violation. Furthermore, there was no attempt
      to ensure the accuracy of muster sheets at their origin in the ﬁeld. OIG concludes
      there is no assurance that the personnel stafﬁng data as represented by the muster
      sheets is complete and accurate.

           Embassy Baghdad’s Regional Security Ofﬁce (RSO) Logistics Ofﬁce is respon-
      sible for managing and controlling government-furnished equipment provided under
      the WPPS II contract. The ofﬁce is directed by a Department-hired personal services
      contractor (PSC), who in turns manages six Blackwater administrative logistics secu-
      rity specialists. OIG believes the use of a PSC to direct—and Blackwater administra-
      tive specialists to carry out—the Logistics Ofﬁce’s mission to manage and control
      government-furnished equipment is a poor management practice, and may violate
      FAR policy that dictates that contractors shall not be used for the performance of
      “inherently governmental” functions. This arrangement is particularly troubling
      because Blackwater personnel have inspected their own company.

          There have been no assessments or analyses to determine the personal protec-
      tive service requirements in Iraq, including how many security personnel to employ,
      where they should be deployed, or the level and manner of protection given the
      threat in particular locations. OIG noted several instances that raised concerns over
      the efﬁcient deployment of contractor security assets. For example, in Tallil in 2007,
      there were no security protection movements for more than six consecutive months


6 .   OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




despite having between 30 to 53 security specialists stationed there. At Basra, chief
of mission personnel conducted only ﬁve security protection movements outside the
Basra Air Base since January 2008. With regard to this issue, Embassy ofﬁcials told
OIG it would be premature to assess the chief of mission’s security posture while
the Status of Forces Agreement was still being negotiated and there is the possibility
of military units departing Iraq. Department security ofﬁcials stated there were no
plans to conduct an overall assessment of the security requirements in Iraq before
the solicitation and awarding of WPPS III.

     The geographical footprint of the three WPPS security contractors in Iraq is a
legacy of the Coalition Provisional Authority period when DynCorp was awarded
protection duties in the northern region and the major cities of Erbil and Kirkuk,
and Triple Canopy in the port city of Basra and the southern region. The decision
to award Blackwater the central region, including Baghdad, was based upon a de-
termination that DynCorp and Triple Canopy did not have the capacity to meet the
full requirements of the expanding mission. Though the Department had originally
envisioned only one security contractor to service Iraq for management convenience
and lower administrative costs, ofﬁcials decided to maintain three security contrac-
tors viable and operating in Iraq because (1) no one company had the capacity to
undertake the entire security mission, (2) three viable contractors provided a level of
assurance in case one of the contractors was no longer able or willing to continue
operations, and (3) continued competition among the contractors provides the U.S.
Government the best value.



ADDITIONAL ISSUES FOR CONSIDERATION
    DS conducts periodic program management reviews (PMR) to determine how
effectively programs are being administered, and whether funds are being used
judiciously and for the purposes for which they are allotted.3 During the course of
this evaluation, the OIG team reviewed more than twenty-ﬁve PMRs related to the
WPPS program. The PMR can be an enormously valuable tool when conducted with
sufﬁcient depth and independence. However, the checklist approach used by the
PMR teams does not provide insight into the contractor performance, or whether
the objectives of the program are being met. The OIG team noted that verbal brief-
ings by PMR teams in the ﬁeld provided more insight and analysis into the status of
the programs than the subsequent written report. Current and former DS PMR team
members told OIG that written reports were tempered so as to not embarrass the
12 FAH-7 H-231.
3




          OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009   7 .


                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




      Bureau. Consideration should be given to (1) expanding the depth of PMR reporting
      to include contractor performance and program outcomes; (2) appointing indepen-
      dent team leaders; and (3) widening distribution of reports to include policy-makers
      and program managers throughout the Department.



      RECOMMENDATIONS

         Recommendation 1: The Bureau of Diplomatic Security should develop a
         workforce plan for the High Threat Protection Division to ﬁll staff vacancies
         and encourage retention of staff responsible for administering the WPPS con-
         tract. (Action: DS)


         Recommendation 2: The Bureau of Administration should develop a work-
         force plan for the Acquisitions Management Division to ensure sufﬁcient staff
         to oversee the WPPS contract, including assigning a dedicated contracting of-
         ﬁcer to Embassy Baghdad to provide proper oversight of WPPS contractor
         activities. (Action: Bureau of Administration)


         Recommendation 3: The Bureau of Diplomatic Security should assign dedi-
         cated contracting ofﬁcer’s is representatives to Embassy Baghdad and Regional
         Embassy Ofﬁces to provide proper oversight of WPPS contractor activities.
         (Action: DS)


         Recommendation 4: The Bureau of Diplomatic Security should develop and
         publish standards, policies, and procedures for managing private security con-
         tractors in the Foreign Affairs Handbook, similar to those created for Local
         Guard and Residential Security programs. (Action: DS)


         Recommendation 5: Embassy Baghdad should assign a U.S. Government 

         direct-hire employee to supervise and approve the work completed by the 

         RSO’s Logistics Ofﬁce. (Action: Embassy Baghdad)





8 .   OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




   Recommendation 6: The Bureau of Diplomatic Security should conduct an
   assessment to determine the personal protective service requirements in Iraq
   to include how many security personnel to employ, where they should be de-
   ployed, and the level and manner of protection given the threat in particular
   locations. (Action: DS)




MANAGEMENT COMMENTS AND OIG RESPONSE
    The OIG team received written comments and updates from Embassy Bagh-
dad’s RSO ofﬁce and DS on a draft of this report. Since Embassy Baghdad’s com-
ments were in e-mail exchanges and DS’ comments were in track changes format on
a report draft and were technical in nature, they were not included in the appendix of
this report. Both Embassy Baghdad and DS technical comments and updates were
incorporated throughout the report, as appropriate. The team also met with Embas-
sy Baghdad security ofﬁcials to discuss their comments and observations.

    Embassy Baghdad concurred with the report’s assessments and recommen-
dations, citing those recommendations directed to OPO as especially signiﬁcant.
Embassy Baghdad highlighted the need to establish support positions with personnel
possessing professional backgrounds in logistics, budget, and ﬁnance.

    DS did not provide comments on recommendations 1, 2, 4, and 6. In regard to
recommendation 3, DS responded that it will begin sending direct hire/PSC person-
nel to Iraq on a long-term temporary duty (TDY) basis to provide COR oversight
to the ground task orders in Iraq. DS is in the process of hiring PSC personnel, and
has requested an additional special agent for this purpose. DS noted that it already
oversees the aviation task order by having a program manager/COR in-country on
long-term TDY and hired a deputy program manager who will alternate with the
program manager to maintain a full-time presence.

    Concerning recommendation 5—related to assigning a direct-hire U.S. Govern-
ment employee to supervise and approve the work completed by the RSO’s Logistics
Ofﬁce—DS indicated that, since the OIG site visit was conducted, DS has assigned a
DS special agent to directly manage and oversee the RSO Logistics Ofﬁce. DS noted,
however, that the Department disagrees with the OIG’s proposition that PSCs can-
not perform “inherently governmental” functions with regard to the disposal of
government property. The Department further avers that PSCs are U.S. Government



          OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009   9 .


                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




       employees under common-law master-servant tests, and that the Ofﬁce of Federal
       Procurement Policy has advised the Department that PSCs may perform inher-
       ently governmental functions to the extent consistent with the statutory authority
       under which their services are retained. Although DS has not cited speciﬁc statutory
       provisions that authorize these particular PSCs to perform the referenced inherently
       governmental functions, DS believes that the current stafﬁng structure and operation
       of the RSO Logistics Ofﬁce is consistent with federal regulations. The OIG team
       considers the assigning of a special agent to directly manage the Logistics Ofﬁce
       responsive to the intent of the recommendation, and is pleased to further learn of
       DS’ stated plan to review options to enhance management and control of govern-
       ment-furnished equipment, including the use of non-WPPS contract personnel to
       perform this function.




10 .   OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009


                      SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED





                                      BACKGROUND

    In March 2000, the Department developed and awarded the ﬁrst iteration of the
WPPS contract to DynCorp International to provide protective services in areas of
the former Yugoslavia, and was subsequently expanded to provide protective ser-
vices in the Palestinian Territories (July 2002) and Afghanistan (November 2002).
In 2004, task orders under the WPPS contract were issued to provide for personal
protective services for Embassy Baghdad when it opened in July 2004. DynCorp was
unable to meet the full requirements of the expanding mission and a second service
provider was established through a contract with Blackwater USA. Subsequently, a
contract was awarded to Triple Canopy to provide protection at the Regional Em-
bassy Ofﬁce in Basra, Iraq.

    In 2005, a new contract (referred to as WPPS II) to replace the original WPPS
contract was awarded to Blackwater, DynCorp, and Triple Canopy to provide pro-
tective services in three separate geographical areas in Iraq. Due to the changing
requirements in Iraq’s combat environment, personnel qualiﬁcations, training, equip-
ment, and management requirements were upgraded under WPPS II. The WPPS
II contract has a ceiling of $1.2 billion per contractor over ﬁve years--one base year
and four option years. There are currently eight active task orders under WPPS II,
including ﬁve speciﬁc to Iraq, and individual task orders for Jerusalem and Afghani-
stan. These task orders are set to expire from May through September 2009. Table 1
provides information on the contractor locations and their work requirements.
 Table 1: WPPS II Task Orders – Contractor and Work Requirements

  Task  Contractor                                   Description of Work
  Order
    1   Blackwater,          Provide contractors’ local program management offices in Washington D.C. area.
            DynCorp, and
            Triple Canopy
     2      Triple Canopy    Provide personal protective services in Israel.
     3      Triple Canopy    Provide personal protective services in Haiti. (Closed)
     4      Blackwater       Provide personal protective services in Afghanistan.
     5      DynCorp          Provide personal protective services in Bosnia. (Closed)
     6      Blackwater       Provide personal protective services in Baghdad, Ramadi, and Baqubah, Iraq.
     7      Triple Canopy    Provide protective security services for the south Iraq region, including Tallil and Basra.
     8      Blackwater       Provide protective security services for Hillah, Karbala, and Najaf, Iraq.
     9      DynCorp          Provide protective security services for the north Iraq region, including Kirkuk, Erbil,
                             Sulaymaniyah, and Kirkuk Air Base.
    10      Blackwater       Provide aviation transportation services for search and rescue and medical evacuation,
                             transporting quick reaction forces to respond to incidents and provide limited air
                             transportation for chief of mission personnel for official business.

 Source: Department of State, Office of Acquisition Management, October 2008.

            OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009                           11 .


                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



            Collectively, the three private security contractors provide more than 1,000 armed
       personal security specialists and guards in Iraq. In addition, the contractors have
       approximately 257 administrative and support staff in Iraq. It is worth noting that
       the number of private security contractors working under the WPPS contract in Iraq
       is roughly equivalent to the number of DS special agents serving worldwide. Table 2
       provides information on the number of WPPS personal security specialists, support
       staff, and guard force operating in Iraq.

         Table 2: WWPS Personnel in Iraq, September 1, 2008

                 Company                    Personal     Administrative                     Guard               Total
                                            Security       and Support                      Force
                                           Specialists          Staff
         Blackwater                           601               205a                          162                968
         DynCorp                               78                 23                           52                153
         Triple Canopy                         80                 29                          60b                 169
         Total                                759                257                          274                1290
         Source: OIG analysis of Bureau of Diplomatic Security data.

         Note:

         a
             Includes 108 aviation support personnel. 

         b
             Guard force is authorized at 166, but currently staffed at 60 due to transition to Basra Air Station.





12 .   OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009


                           SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





            MANAGING IRAQ’S PROTECTION
                SECURITY PROGRAM


     The Department’s security operation in Iraq has been highly effective in ensuring
the safety of chief of mission personnel. For over ﬁve years, and during thousands
of movement missions in Iraq’s chaotic and complex security environment, Embassy,
executive agency, and congressional ofﬁcials have maintained continual diplomatic
engagement at all levels with the Iraqi Government and society. However, the rapid
rise and scale in the use of private security contractors has strained the Department’s
ability to effectively manage the contract. Furthermore, the drawdown of U.S. and
coalition military forces in Iraq is likely to create increased requirements for personal
protective services.

     The Department employs a two-part administrative structure to oversee and
manage WPPS contractors. In Washington, DC, the Bureau of Administration’s
Ofﬁce of Acquisitions Management (AQM) is responsible for contract management
services including acquisition planning, contract negotiations, cost and price analy-
sis, and contract administration. DS/OPO provides overall management oversight,
operational guidance, and funding for the WPPS contract. Within OPO, the High
Threat Protection Division provides the daily ﬁnancial and contractual management
oversight, personnel, training, and operational guidance for the WPPS contractors.
In Iraq, the RSO and special agents assigned in Erbil, Kirkuk, Hillal, Tallil, and Basra
provide general oversight and manage day-to-day security operations in the ﬁeld.

    OIG’s assessment of the internal control environment for the WPPS program
revealed numerous “red ﬂags4” that indicate the Department does not have adequate
internal controls. Internal controls are an integral part of the Department’s man-
agement of the program, and should provide reasonable assurance that the WPPS
program is effectively and efﬁciently managed; is in compliance with federal laws and
regulations; and that its assets are safeguarded. The Department’s management of
Iraq’s security program has been undermined by:

            •     Frequent changes in management personnel;
            •     Rapid expansion of activities;
See OMB Circular A-123, Management Responsibility for Internal Control and Standards for Internal
4

Control in the Federal Government, GAO/AIMD-00-21.3.1, November 1999.


           OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009     13 .


                      SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



                  •     	 nderstafﬁng and drastic increase in workload, and staff difﬁculties
                        U
                        handling operational workload;
                   • 	 Lack of standardized operating policies and procedures; and
                   • 	 Staff frustrated by requests for information from the Department
                       and Congress, and their inability to provide information.




       WASHINGTON MANAGEMENT ISSUES
           AQM assigns the contracting ofﬁcer who has authority to enter into, administer,
       and terminate the WPPS contracts and is responsible for a variety of tasks, including
       ensuring compliance with task orders, and safeguarding the interests of the Depart-
       ment in its contractual relationship with the security contractors. Since July 2004,
       there have been six contracting ofﬁcers responsible for the WPPS contract. Similarly,
       OPO ofﬁcials report more than 150 percent turnover in their contract support staff
       since December 2006. According to current and former DS ofﬁcials, this high rate
       of staff turnover has signiﬁcantly undermined the administration and oversight of
       WPPS contractors’ activities.

           In addition to high staff turnover, ofﬁcials cite a shortage of staff to manage and
       oversee contractors’ performance. The contracting ofﬁcer told the OIG team that
       AQM lacks the manpower to review contractor invoices, including personnel muster
       sheets. Therefore they were unable to determine if the costs incurred and charged by
       the contractors are proper. The contracting ofﬁcer noted the size and complexity of
       the WPPS II contract exceeds the ofﬁce’s ability to effectively manage and perform
       due diligence on contract oversight. As a result, the contracting ofﬁcer stated AQM
       focuses on administering the technical aspects of the WPPS contracts and leaves the
       monitoring of performance and costs to OPO and Embassy Baghdad.5

           OPO’s High Threat Protection Division over the years has suffered from a
       shortage of personnel to administer the WPPS contract, but has taken recent steps
       to bring in additional staff to oversee the WPPS contract and review invoices for
       errors in the scope of the contract and overcharging. An OIG/Inspection team
       noted staff shortages in December 2005 and recommended that steps be taken to
       obtain additional staff to oversee the WPPS contract.6 In mid-November 2008, OPO
       created a new branch under the High Threat Protection Division by merging one
       direct-hire program analyst and seven contract specialists from its Operational Sup-
       5
       OIG noted that the last contracting ofﬁcer to visit Iraq was in March 2006.

       6
       OIG Report No. ISP-I-06-03, Inspection of the Bureau of DS Directorate for International 

       Programs, December 2005.


14 .   OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED




port Division for a newly combined division total of 26 staff. However, OIG noted
that four of these positions were vacant. A senior OPO ofﬁcial told the OIG team
he now believes the ofﬁce has sufﬁcient staff to administer the contract. However,
this ofﬁcial further noted that a greater concern is the quality of the personnel and
the high rate of staff turnover. Many of these positions are ﬁlled through a stafﬁng
contract and are not U.S. Government direct-hire personnel with government con-
tract experience.



IRAQ MANAGEMENT ISSUES
    OPO’s High Threat Protection Division chief, based in Washington, is the pri-
mary contracting ofﬁcer representative (COR). The COR is responsible for assuring,
through liaison with the contractors, that the contractors accomplish the technical
and ﬁnancial aspects of the contract. In an effort to enhance contract oversight, DS
began assigning COR responsibility to special agents in December 2007 to certify
performance and receipt of services in Iraq. However, the OIG team observed that
some of these assignments were conducted without the required authorization and
knowledge of the contracting ofﬁcer, and briefed this fact to embassy ofﬁcials.7
OIG was pleased to learn that in late-September, these special agents were ofﬁcially
re-designated government technical monitors (GTM) by the contracting ofﬁcer. A
COR and two assistant CORs have been appointed within the Baghdad RSO ofﬁce
to oversee all Iraq task orders. The GTMs, appointed at locations outside Baghdad
where WPPS contractors operate, report to the COR, and are authorized to monitor
and inspect the contractor’s progress and performance to ensure compliance with
the contract terms and conditions.

    Despite assigning special agents oversight responsibilities for security contrac-
tors, the OIG team found signiﬁcant problems in the Embassy’s ability to effectively
monitor the WPPS contracts. The high operational tempo in Iraq requires special
agents to work 12-14 hour days, seven days a week. The senior security ofﬁcer told
the OIG team the priority task for special agents is the protection and safety of per-
sonnel who fall under chief of mission authority; contractor oversight is a collateral
duty. Special agents in Baghdad, Erbil, Kirkuk, Hillah, and Basra, told the OIG team
their focus is on the planning and execution of the protection missions and that they
have little time for contract administration. A senior security ofﬁcer told OIG the
Embassy relies on the contractors to manage their own staff and property. Special
agents reported they have excellent awareness of how the contractors perform their
7
 The authority to appoint CORs rests with the contracting ofﬁcer. See 14 FAH-2 H-141.b(4).



           OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009   15 .


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




       protection duties but minimal insight regarding how the contracts are managed and
       whether cost is properly allocated. For example, these special agents were not verify-
       ing contractor muster sheets or the maintenance of the property control system for
       government-furnished equipment.

            Effective oversight of private security contractors is also hindered by the fre-
       quent turnover of staff in Iraq. Special agents serve on a 12- month rotational sched-
       ule, which includes nearly two months of R&R time away from post. Moreover,
       assignment transfer dates for most special agents are during the summer months,
       resulting in a lack of continuity and gaps in the transfer of institutional knowledge.
       The OIG team also noted that the Embassy and ﬁeld sites were not maintaining, or
       had limited, contractor ﬁles as required by FAR policy,8 including:

           •   Copies of contractor’s approved work plan;
           •   Copies of contract and all modiﬁcations;
           •   Copies of progress reports;
           •   Copies of correspondence;
           •   Documentation of acceptability/unacceptability of deliverables; and
           •   Copies of invoices and vouchers.
           The lack of contractor ﬁles presents an unnecessary burden for newly arriving
       special agents who need to quickly learn and understand contract requirements and
       program practices and procedures. Finally, the only training for special agents
       assigned WPPS oversight responsibilities is the completion of a basic 40-hour
       contracting ofﬁcer representative course. Special agents told the OIG team that the
       training was too generic to adequately prepare them for the scope and complexity of
       the WPPS contract.

           OIG believes overall management of the WPPS program could be improved by
       developing and publishing standards, policies, and procedures for managing private
       security contractors in the Foreign Affairs Handbook (FAH), similar to those cre-
       ated for the DS Local Guard9 and Residential Security10 programs. The Handbook
       provides useful information on roles and responsibilities, including background
       information and reference sources. The Handbook also provides guidance on pro-
       gram management, determining requirements, and procedures related to funding and
       stafﬁng.

       8
        FAR 4.801.
       9
        12 FAH-7.
       10
         12 FAH-8.




16 .   OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



VERIFYING PERSONNEL LABOR COSTS
    The WPPS contract requires that the three personal security contractors submit
personnel rosters (muster sheets) to document that staffs are present and available
for work. The muster sheets list the names, labor category, and dates the contractor
staffs are present and available for work. The OIG team observed the muster sheets
were not being certiﬁed by the contractors’ program managers, nor were RSO agents
reviewing or verifying the accuracy of the muster sheets in the ﬁeld. The muster
sheets are then sent to the contractors’ corporate ofﬁces where they are reviewed,
adjusted, and certiﬁed before submission to DS for payment. At DS headquarters,
the muster sheets are reviewed to ensure the labor category and pay rates are cor-
rect and properly calculated. The muster sheets are also cross-checked against travel
receipts to identify any unexplained gaps for personnel out of country.

    OIG’s analysis of the muster sheets revealed the three WPPS II contractors had
recurring difﬁculties maintaining required stafﬁng for three critical labor categories-
-emergency medical technicians, designated marksmen, and interpreters. OIG noted
that the Department and the contracting ofﬁcers never invoked the ﬁnancial deduct
penalty clause for this violation.11 Moreover, while OIG observed that DS puts great
effort into ensuring the mathematical accuracy of the personnel invoices, there
was no attempt to ensure the accuracy of muster sheets at their origin in the ﬁeld.
Therefore, OIG concludes there was no assurance that the personnel stafﬁng data, as
represented by the muster sheets, is complete and accurate. Furthermore, there is no
evident or documented statement of responsibility for the accuracy of this informa-
tion by contractor personnel or Embassy ofﬁcials in Iraq.

    OIG is completing work on two reports on the contract performance of Dyn-
Corp International and Triple Canopy, and will address the issue of verifying labor
costs in greater detail in those reports.



MANAGING GOVERNMENT-FURNISHED EQUIPMENT
     Embassy Baghdad’s RSO Logistics Ofﬁce is responsible for managing and con-
trolling government-furnished equipment provided under the WPPS II contract. The
ofﬁce is directed by a Department-hired personal services contractor (PSC), who in

11
  In comments to a draft of this report, DS noted the Department reconstituted its right to take
deductions on June 1, 2008. Since then, deductions have been assessed to June through September
invoices that have surpassed the maximum vacant days allowable, according to the terms and
conditions of Section H.15 of the WPPS II base contract.


           OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009    17 .


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




       turns manages six Blackwater administrative logistics security specialists. A deputy
       RSO is responsible for overseeing the Logistic Ofﬁce’s operations; however, OIG
       noted, and an internal DS Program Management Review report conﬁrmed, that the
       neither the deputy RSO nor a U.S. direct-hire conducted oversight of WPPS inven-
       tories. The Logistics Ofﬁce carries out quarterly inventories of WPPS equipment at
       seven sites throughout Iraq, including Blackwater’s aviation operations under Task
       Order Number 10. According to Embassy ofﬁcials, there are more than 500 vehicles,
       7,500 weapons, $4 million in annual ammunition purchases (including training),
       personal protective equipment, and sensitive communication items to be managed
       and controlled under the WPPS II contract in Iraq. As a practical matter, veriﬁcation
       of the existence, location, custody, and control of government-furnished property
       through physical inventories must be an “inherently governmental” function when
       validating the existence of property with a private contractor.12

            The Logistics Ofﬁce does have some internal controls in place, including three
       federal approvals that are required prior to the disposal of government property;
       however, there is no indication that there are similar controls in place for the Logis-
       tics Ofﬁce’s other functions.13 On paper, this process appears to satisfy the require-
       ments of the FAR14 and to avoid the problems of the PSC performing “inherently
       governmental” functions with regard to this discrete function. However, even in
       this particular instance, the vulnerability lies in the fact that each ofﬁce involved in
       the approval chain also employs PSCs, so potentially all of the documents could be
       processed by PSCs. Moreover, the apparent lack of internal controls in other areas
       handled by the Logistics Ofﬁce greatly concerns OIG.

          OIG is particularly concerned about the following functions performed by the
       Logistics Ofﬁce contractors:

            • 	 Services that involve or relate to the evaluation of another contractor’s per-
                formance; 15
       12
         Anything else would place subordinate contractors into the insuperable position of verifying
       whether their employer actually had the property on hand it claimed to have; in essence, the
       awkward position of employees auditing their employer.
       13
         The three levels of approval include the following steps: (1) the Defense Contracting
       Management Activity (DCMA) sends a letter based on Kellogg, Brown, & Root’s (KBR)
       recommendation indicating that a government vehicle has outlived its usefulness, is mechanically
       unsound, or prohibitively expensive to repair; (2) the Logistics Ofﬁce PSC then drafts a cable
       to the Department of State Defensive Equipment Armored Vehicle Division (DEAV) requesting
       permission to demilitarize/cannibalize the vehicle in question, and DEAV will reply granting
       permission to process; (3) the Deputy RSO for Protective Operations also provides the Logistics
       Ofﬁce with the approval to dispose of the vehicle in accordance with the FAM, which takes place
       before DEAV’s permission has been requested for cannibalization.
       14
         FAR Section 7.503(c)(11)-(12)(i).
       15
         FAR Section 7.503 (d)(5).

18 .   OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED



     • 	 Services in support of acquisition planning;16
     • 	 Contractors providing assistance in contract management (such as where the
         contractor might inﬂuence ofﬁcial evaluations of other contractors); 17
     • 	 Contractors participating in any situation where it might be assumed that
         they are agency employees or representatives; and 18
     • 	 Contractors providing inspection services. 19

    In light of the totality of the circumstances under which these functions are
carried out, OIG believes the use of a PSC to direct—and Blackwater administra-
tive specialists to carry out—the Logistics Ofﬁce’s mission to manage and control
government-furnished equipment is, at best, a poor management and internal control
practice, and at worst, may violate FAR policy which mandates that contractors shall
not be used for the performance of “inherently governmental” functions.

     The use of contractor staff to carry out functions that “approach”20 being “in-
herently governmental,” without direct supervision from a U.S. Government direct-
hire employee, violates the “inherently governmental” function provision of the
FAR.21 This is particularly evident—and troubling—with regard to those tasks that
require Blackwater personnel to serve in an inspection capacity involving their own
company and the government-furnished equipment it has received and for which it
is accountable. Therefore, OIG recommends that this process be altered to include a
U.S. Government direct-hire employee who supervises and approves the work that is
completed by the Logistics Ofﬁce.




16
  FAR Section 7.503 (d)(6).

17
  FAR Section 7.503 (d)(7).

18
  FAR Section 7.503 (d)(13).

19
  FAR Section 7.503 (d)(17).

20
  FAR Section 7.503(d).

21
  If Embassy Baghdad had not had the three levels of U.S. Government direct-hire approval 

(described above in footnote 12) involvement with Logistics Ofﬁce contractors when determining 

whether government property was to be disposed of or supplies acquired, this would have been a 

direct violation of FAR Section 7.503(c)(11) and 7.503(c)(12)(i).





           OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009    19 .


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





-
20 .   OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009


                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





                 SECURITY REQUIREMENTS


     Neither DS nor Embassy Baghdad has conducted any assessments or analyses to
determine the personal protective service requirements in Iraq. Department security
ofﬁcials acknowledge there have been no studies to determine how many security
personnel to employ, where they should be deployed, or the level and manner of
protection given the threat in particular locations. According to Department secu-
rity ofﬁcials and contractor representatives, the current private contractor security
footprint in Iraq dates back to the period when the Coalition Provisional Authority
(CPA) was dissolved in June 2004.

    According to ofﬁcials from DS’s Overseas Protection Ofﬁce their ofﬁce does not
conduct security needs assessments and rely on the embassies to report their individ-
ual security requirements. OPO ofﬁcials stated that thus far they have not received
reporting from Embassy Baghdad or other sites in Iraq of changed security require-
ments. OIG’s analysis of WPPS II revealed that over the course of the contract there
have been only small incremental changes in the tasks orders.

     Embassy security ofﬁcials told OIG that they inherited the current private secu-
rity set-up—contractors, number of security specialists, and protection locations—
from their predecessors and proceeded on that basis. The ofﬁcials explained the high
operational tempo in Iraq limited their ability to make an in-depth assessment of
security requirements and determine whether the current conﬁguration of security
assets still made sense. These ofﬁcials further stated that they lacked the manpower
and skill sets to conduct such an assessment. Finally, security ofﬁcers in Iraq serve
12-month tours and spend their initial months getting up to speed on their assign-
ment tasks and responsibilities within a challenging security environment, and rotate
out before they develop a country-wide institutional security perspective.

   OIG noted several instances that raised concerns over the efﬁcient deploy-
ment of contractor security assets.22 At Tallil Airbase in 2007, headquarters to three
Provincial Reconstruction Teams, there were no security protection movements for
more than six consecutive months despite the 30 to 53 security specialists stationed
22
 In December 2008, OIG will initiate an evaluation examining the role, stafﬁng, and effectiveness
of Regional Embassy Ofﬁces in Iraq.




           OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009     21 .


                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




       there. In August 2008, at the mostly vacated Kirkuk Regional Embassy Ofﬁce, the
       OIG team observed that fourteen private security specialists and guard force person-
       nel were assigned to protect one Foreign Service administrative ofﬁcer. At the Basra
       Regional Embassy Ofﬁce, chief of mission personnel had engaged in ﬁve security
       movements since January 2008 off the Air Base, and as of late-September 2008,
       approximately 113 security specialists, support staff, and guard force personnel were
       assigned there.

            Department security ofﬁcials stated there are no plans to conduct an overall as-
       sessment of the security requirements in Iraq before the solicitation and awarding of
       WPPS III. Embassy ofﬁcials stated it would be premature to discuss chief of mis-
       sion’s security posture while the Status of Forces Agreement is still being negotiated,
       changes in the International Zone (pink vs. red zones) are still being decided upon,
       and there is uncertainty on a timeframe for the repositioning and departure of mili-
       tary units. The Embassy also reported to the OIG team an initiative to integrate Iraqi
       police into chief of mission motorcades to provide movement protection for U.S.
       personnel. The OIG team appreciates the complex and uncertain political and secu-
       rity environment in Iraq. Nonetheless, OIG believes the Department would beneﬁt
       from a thorough review of the private security program to determine if the current
       number and placement of private security assets remains appropriate given shifting
       workloads, a changed security environment, and future requirements.




22 .   OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009


                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




      DETERMINING CONTRACTOR WORK
      LOCATIONS AND RESPONSIBILITIES


    The current geographical placement of the three WPPS security contractors in
Iraq is a legacy of CPA period when DynCorp International was awarded protection
duties in the northern region and the major cities of Erbil and Kirkuk, and Triple
Canopy in the port city of Basra and the southern region. (see ﬁg. 1) According to
Department ofﬁcials knowledgeable of this time period, it made programmatic sense
to keep the security contractors in their present locations and take advantage of their
familiarity with local ofﬁcials and conditions. The decision to award Blackwater the
central region, including Baghdad, was based upon a determination that DynCorp
and Triple Canopy did not have the capacity to meet the full requirements of the
expanding mission.

   Figure 1: Iraq – Location of WPPS Private Security Contractors’ Operations




       Source: OIG analysis of Department data


          OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009   23 .


                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




            According to Department ofﬁcials involved in the award and management of the
       WPPS II contract, Blackwater was awarded the largest percentage of WPPS II activi-
       ties in Iraq because the company was more cost competitive than the other ﬁrms,
       and it had the capacity to ramp up operations quickly and take on larger security
       responsibilities. These ofﬁcials stated further that DynCorp and Triple Canopy were
       fully extended and operating at capacity.

           DS ofﬁcials told the OIG team they originally wanted only one security contrac-
       tor to service Iraq under the WPPS contact; similar to Afghanistan, where Black-
       water is the sole contractor, and Jerusalem, where Triple Canopy provides security.
       From a management perspective, one contractor is easier to direct and there are
       fewer administrative costs involved. However, the DS ofﬁcials stated there was
       consensus that they did not want to put all their “eggs in one basket” and sought to
       mitigate the risk of dependence on a single contractor. Speciﬁcally, OIG was told
       that DS wanted to keep all three contractors viable and operating in Iraq because:
       (1) no one company had the capacity to undertake the entire security mission; (2)
       three viable contractors provided a level of assurance in case one of the contractors
       was no longer able or willing to continue operations and (3) continued competition
       among the contractors provides the U.S. Government the best value.




24 .   OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009


                      SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





             LIST OF RECOMMENDATIONS

Recommendation 1: The Bureau of Diplomatic Security should develop a work-
  force plan for the High Threat Protection Division to ﬁll staff vacancies and
  encourage retention of staff responsible for administering the WPPS contract.
  (Action: DS)

Recommendation 2: The Bureau of Administration should develop a workforce
  plan for the Acquisitions Management Division to ensure sufﬁcient staff to
  oversee the WPPS contract, including assigning a dedicated contracting ofﬁcer
  to Embassy Baghdad to provide proper oversight of WPPS contractor activities.
  (Action: Bureau of Administration)

Recommendation 3: The Bureau of Diplomatic Security should assign dedicated
  contracting ofﬁcer representatives to Embassy Baghdad and Regional Embassy
  Ofﬁces to provide proper oversight of WPPS contractor activities. (Action: DS)

Recommendation 4: The Bureau of Diplomatic Security should develop and pub-
  lish standards, policies, and procedures for managing private security contractors
  in the Foreign Affairs Handbook, similar to those created for Local Guard and
  Residential Security programs. (Action: DS)

Recommendation 5: Embassy Baghdad should assign a U.S. Government direct-
  hire employee to supervise and approve the work completed by the RSO’s Logis-
  tics Ofﬁce. (Action: Embassy Baghdad)

Recommendation 6: The Bureau of Diplomatic Security should conduct an assess-
  ment to determine the personal protective service requirements in Iraq to include
  how many security personnel to employ, where they should be deployed, and the
  level and manner of protection given the threat in particular locations. (Action:
  DS)




         OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009   25 .


                   SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





-
26 .   OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009


                      SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED





                        ABBREVIATIONS

AQM                  Ofﬁce of Acquisitions Management

COR                  Contracting Ofﬁcer’s Representative

DS                   Bureau of Diplomatic Security

FAH                  Foreign Affairs Handbook

FAR                  Federal Acquisition Regulation

FSI                  Foreign Service Institute

GTM                  Government Technical Monitor

MERO                 Middle East Regional Ofﬁce (Ofﬁce of Inspector General)

OIG                  Ofﬁce of Inspector General

OPO                  Overseas Protective Operations (Bureau of Diplomatic
                     Security)

PMR                  Program Management Review

PSC                  Personal Service Contractor

RSO                  Regional Security Ofﬁcer

WPPS                 Worldwide Personal Protective Services




      OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009   27 .


                SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





-
28 .   OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009


                      SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED





     APPENDIX I – PURPOSE, SCOPE, AND
             METHODOLOGY


    The Middle East Regional Ofﬁce (MERO), Ofﬁce of Inspector General initiated
this evaluation on June 19, 2008 to determine (1) whether DS is effectively managing
the WPPS program, (2) how security requirements in Iraq were determined, and (3)
what factors were considered for the geographical array of security contractors, DS
staff, and equipment within Iraq.

     To examine the progress made and the challenges faced by the Department
in managing the protective security program in Iraq, OIG analyzed the WPPS II
contract and task orders against requirements within the Federal Acquisition Regula-
tions and the Federal Acquisition Handbook. OIG tested the Department’s internal
controls based upon requirements established in OMB Circular A-123 and standards
set forth by the U.S. Government Accountability Ofﬁce. In addition, the OIG team
obtained and reviewed program planning, resource, stafﬁng, and evaluation docu-
ments, including DS internal Program Management Reviews. OIG also met with
the following ofﬁcials to discuss the Department’s management of the Iraq security
program:

     • In Washington, DC, OIG met with senior ofﬁcials from the Bureaus of Dip-
lomatic Security, Administration, and Near East Asia associated with the personnel
protection contracts, as well as the corporate representatives from Blackwater USA,
DynCorp International, and Triple Canopy. Within the Bureau of Diplomatic Secu-
rity, OIG met with ofﬁcials from International Programs Directorate, which includes
the Overseas Protective Operations, High Threat Protection Division, and Ofﬁce of
Regional Directors Near East Asia-Iraq. OIG met with several contracting ofﬁcers
and specialists from the Bureau of Administration, Ofﬁce of Logistics Management,
and the Ofﬁce of Acquisitions. Finally, the OIG team met with current and former
DS contracting ofﬁcer representatives.

    • In Iraq, OIG held extensive discussions with senior embassy ofﬁcials, includ-
ing the Deputy Chief of Mission and the Counselors for Regional Security, Manage-
ment, and Ofﬁce of Provincial Affairs. The OIG team met with senior military lead-
ers from Multi National Forces-Iraq. OIG visited all the sites in Iraq where personal
security contractors are assigned, including Baghdad, Erbil, Kirkuk, Hillah, Tallil,
and Basra. The team interviewed deputy regional security ofﬁcers and special agents,


         OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009   29 .


                   SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




       regional embassy ofﬁcers and Provincial Reconstruction Team ofﬁcials. It also met
       with the in-country program managers, team leaders, and security specialists from
       Blackwater, DynCorp, and Triple Canopy. Finally, the OIG team assessed contract
       performance by reviewing personnel, training, and movement mission documenta-
       tion, and conducted inventories of U.S. government furnished equipment, vehicles,
       and weapons.

            OIG conducted this evaluation from June to November 2008. OIG used a lim-
       ited amount of computer-processed data to perform this evaluation. OIG conducted
       this performance evaluation in accordance with the quality standards for inspections
       and evaluations issued in January 2005 by the Council of Inspectors General on
       Integrity and Efﬁciency.

           The report was prepared under the direction of Richard “Nick” Arntson, assis-
       tant inspector general for MERO. The following staff members conducted the evalu-
       ation and/or contributed to the report: Patrick Dickriede, Christine Grauer, Kristen
       Jenkinson, Katherine Klegin, and Judith Morsy.




30 .   OIG Report No. MERO-IQO-09-02, Review of DS Management of PPS in Iraq - January 2009


                      SENSITIVE BUT UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs

         and resources hurts everyone. 


        Call the Office of Inspector General 

                     HOTLINE 

                    202-647-3320 

                 or 1-800-409-9926 

          or e-mail oighotline@state.gov 

       to report illegal or wasteful activities.

               You may also write to
            Office of Inspector General
             U.S. Department of State
               Post Office Box 9778
               Arlington, VA 22219
            Please visit our Web site at:
                http://oig.state.gov

         Cables to the Inspector General
        should be slugged “OIG Channel”
            to ensure confidentiality.
